HHS/OIG, Audit -"Review of Aid to Families With Dependent Children Overpayments
in Vermont for the Period October 2001 - March 2005,"(A-01-06-02505)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Aid to Families With Dependent
Children Overpayments in Vermont for the Period October 2001 - March 2005," (A-01-06-02505)
January 18, 2006
Complete
Text of Report is available in PDF format (262 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether Vermont reimbursed the Federal Government for its
share of collected AFDC overpayments for the period October 2001 through March 2005. Vermont
did not comply with Federal requirements for reimbursing the Federal share of collected AFDC
overpayments. Vermont collected $66,781 ($40,650 Federal share) during the audit period.
However, Vermont did not return the Federal share of the recovered overpayments to ACF. We
recommended that Vermont reimburse the Federal Government $40,650 for its share of collected
AFDC overpayments and implement written policies and procedures to ensure that the Federal
Government receives its share of AFDC collections. In comments to our draft report, Vermont
agreed with our finding and recommendations.